27

APPENDIX
- A: Connecticut District Court Decision - Judge Stefan Underhill
- B: Second Circuit Court of Appeal Decision - Judge Debra Ann
Livingston
ADDITIONAL DEEMED SIGNIFICANT:
- C: Current FBI Criminal Background Check
- D: Petition for Rehearing that was Denied by Second Circuit Court of Appeals
- E: Deposition of Warrant writing Officer James Sullivan regarding Warrant at
issue within Petition for Rehearing as Appeal Exhibit JJJ.

27

UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT

JAMES LAWRENCE,
Plaintiff,

No. 3:18-cv-1927 (SRU)

v.
ALTICE USA,
Defendant.
RULING ON MOTION TO DISMISS.
OR. IN THE ALTERNATIVE. FOR SUMMARY JUDGMENT
In this case, Altice USA (“Altice”) moves to dismiss James Lawrence’s (“Lawrence”)
amended complaint, or in the alternative, for summary judgment. Lawrence’s amended
complaint alleges, essentially, that Altice defamed him when it referred to him as a “stalker” in a
series of television and print news reports. On December 19, 2019,1 held a hearing in this
matter and took the instant motion under advisement. I now grant Altice’s motion for summary
judgment because the statements at issue are substantially true and are not defamatory.
I.

Nature of the Motion
This motion was styled as one to dismiss, or, in the alternative, for summary judgment.

A Rule 12(b)(6) motion to dismiss is confined to the pleadings; if “matters outside the pleadings
are presented to and not excluded by the court, the motion must be treated as one for summary
judgment under Rule 56.” Fed. R. Civ. P. 12(d). “All parties must be given a reasonable
opportunity to present all the material that is pertinent to the motion.” Id. The major harm of
considering extrinsic materials on a Rule 12(b)(6) motion is “the lack of notice that the material
may be considered.” Chambers v. Time Warner, Inc., 282 F.3d 147, 153 (2d Cir. 2002) (citing
Cortec Indus., Inc. v. Sum Holding L.P., 949 F.2d 42, 48 (2d Cir. 1991)). When the plaintiff

* 1

“has actual notice of all the information in the movant’s papers and has relied upon these
documents in framing the complaint[,] the necessity of translating a Rule 12(b)(6) motion into
one under Rule 56 is largely dissipated.” See id. (internal quotation marks and citation omitted).
In the Second Circuit, a court may consider extrinsic materials on a Rule 12(b)(6) motion
without converting it to a Rule 56 motion if the materials are either (1) integral to the complaint,
or (2) facts appropriate for judicial notice. See Global Network Commc’ns, Inc. v. City ofNew
York, 458 F.3d 150, 156 (2d Cir. 2006). For materials to be “integral” to a complaint, the
plaintiff must have relied on those materials in drafting the complaint; it is not enough that the
plaintiff had mere notice or possession of them. See id. (citing Chambers, 282 F.3d at 152-53).
Courts may take judicial notice of facts “not subject to reasonable dispute” either because they
are generally known in the relevant community or “can be accurately and readily determined
from sources whose accuracy cannot reasonably be questioned.” Fed. R. Evid. 201(b).
It is an open question in the Second Circuit whether courts can take judicial notice of
police incident reports, but it seems that many courts refrain from doing so. See, e.g., Alvarez v.
County of Orange, N.Y., 95 F. Supp. 3d 385, 398 (S.D.N.Y. 2015); Bejaoui v. City of New York,
2015 WL 1529633, at *6 (E.D.N.Y. Mar. 21, 2015); Serrata v. Givens, 2019 WL 1597297, at *4
(E.D.N.Y. Apr. 15, 2019). A court may take judicial notice of recordings, articles, and
transcripts when a plaintiff in a defamation action either submits them or clearly relies on them
and if taking them into account would not create unfairness to either party. See, e.g., Condit v.
Dunne, 317 F. Supp. 2d 344, 357-58 (S.D.N.Y. 2004) (all three); Goldman v. Barrett, 2017 WL
4334011, at *2 n.4 (S.D.N.Y. July 25, 2017) (article); Murawski v. Pataki, 514 F. Supp. 2d 577,
589 (S.D.N.Y. 2007) (article, even when submitted by defendants).

2

I will treat the instant motion as one for summary judgment. Although I believe, under
the foregoing standards, I could take into consideration some of Altice’s submissions without
converting this motion into one for summary judgment, I will not do so. For one, at the hearing I
held on December 19, 2019, Lawrence requested that I treat this motion as one for summary
judgment, and Altice did not object. In addition, Lawrence has submitted evidence that fairness
dictates I consider. Thus, I will treat this motion as one for summary judgment and take into
consideration all the evidence that has been presented.
II.

Standard of Review for Summary Judgment
Summary judgment is appropriate when the record demonstrates that “there is no genuine

dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed.
R. Civ. P. 56(a); see also Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 256 (1986) (plaintiff
must present affirmative evidence in order to defeat a properly supported motion for summary
judgment).
When ruling on a summary judgment motion, the court must construe the facts of record
in the light most favorable to the nonmoving party and must resolve all ambiguities and draw all
reasonable inferences against the moving party. Anderson, 477 U.S. at 255; Matsushita Elec.
Indus. Co. v. Zenith Radio Corp475 U.S. 574, 587 (1986); Adickes v. S.H. Kress & Co., 398
U.S. 144, 158-59 (1970); see also Aldrich v. Randolph Cent. Sch. Dist., 963 F.2d 520, 523 (2d
Cir. 1992) (court is required to “resolve all ambiguities and draw all inferences in favor of the
nonmoving party”). When a motion for summary judgment is properly supported by
documentary and testimonial evidence, however, the nonmoving party may not rest upon the
mere allegations or denials of the pleadings but must present sufficient probative evidence to

3

V

establish a genuine issue of material fact. Celotex Corp. v. Catrett, All U.S. 317, 327 (1986);
Colon v. Coughlin, 58 F.3d 865, 872 (2d Cir. 1995).
“Only when reasonable minds could not differ as to the import of the evidence is
summary judgment proper.” Bryant v. Maffucci, 923 F.2d 979, 982 (2d Cir. 1991); see also
Suburban Propane v. Proctor Gas, Inc., 953 F.2d 780, 788 (2d Cir. 1992). If the nonmoving
party submits evidence that is “merely colorable,” or is not “significantly probative,” summary
judgment may be granted. Anderson, All U.S. at 249-50.
The mere existence of some alleged factual dispute between the parties
will not defeat an otherwise properly supported motion for summary
judgment; the requirement is that there be no genuine issue of material
fact. As to materiality, the substantive law will identify which facts are
material. Only disputes over facts that might affect the outcome of the suit
under the governing law will properly preclude the entry of summary
judgment. Factual disputes that are irrelevant or unnecessary will not be
counted.
Id. at 247^18. To present a “genuine” issue of material fact, there must be contradictory
evidence “such that a reasonable jury could return a verdict for the non-moving party.” Id. at
248.
If the nonmoving party has failed to make a sufficient showing on an essential element of
his case with respect to which he has the burden of proof at trial, then summary judgment is
appropriate. Celotex, All U.S. at 322. In such a situation, “there can be ‘no genuine issue as to
any material fact,’ since a complete failure of proof concerning an essential element of the
nonmoving party’s case necessarily renders all other facts immaterial.” Id. at 322-23; accord
Goenaga v. March of Dimes Birth Defects Found., 51 F.3d 14, 18 (2d Cir. 1995) (movant’s
burden satisfied if he can point to an absence of evidence to support an essential element of
nonmoving party’s claim). In short, if there is no genuine issue of material fact, summary
judgment may enter. Celotex, All U.S. at 323.
4

III.

Background
A. Procedural History
Lawrence, proceeding pro se, filed a complaint for defamation against Altice on

November 28, 2018. Compl., Doc. No. 1. Lawrence alleged both slander and libel. Id. at 9-10.
Lawrence claimed that one of Altice’s subsidiaries—News 12 Connecticut (“News 12”)—
broadcast television segments and published online articles that defamed him in various ways.
See id. at 7-8 (listing six ways). Altice made a motion to dismiss the complaint on December
21, 2018. See Mot. to Dismiss, Doc. No. 12. At a hearing on Altice’s motion to dismiss on May
9, 2019,1 granted Altice’s motion in substantial part but denied it with respect to one aspect of
Lawrence’s defamation claim: that News 12’s use of the word “stalker” in its reports
inaccurately portrayed Lawrence, who was in fact arrested on a breach of peace charge. See
Min. Entry, Doc. No. 30. I granted Lawrence leave to file an amended complaint that addressed
only the “stalking” issue and fixed a jurisdictional defect in his initial pleading.1 Lawrence, at
the second try,2 filed an amended complaint. See Am. Compl., Doc. No. 36. Lawrence’s
amended complaint attempted to address the jurisdictional defect but did not narrow his
allegations in any meaningful way. Altice made a motion to dismiss, or, in the alternative, for
summary judgment. See Mot. to Dismiss, or for Summ. J. (“Mot. for Summ. J.”), Doc. No. 39.
Lawrence has filed numerous responses, see, e.g., Doc. Nos. 40, 41,42, 45, 47,48, 49, 51, 53,
56, 59, 60. Many of those responses are essentially duplicative of—and reference—his earlier
responses. See Doc. Nos. 20, 26, 29. The Defendants have filed a reply, see Doc. No. 44, and a

! Lawrence initially pled jurisdiction under 28 U.S.C. § 4101, which merely defines “defamation” for the purposes
of recognizing foreign judgments and is not a basis for federal court subject matter jurisdiction.
2 Lawrence’s first attempt was inadequate. See Notice, Doc. No. 35.

5

sur-reply, see Doc. No. 52-1.3 Both sides have submitted extrinsic evidence, and I have
considered all of it that is relevant.

B. Facts4
On November 5, 2017, Lawrence began following a woman inside a Fresh Market
grocery store in Westport and then followed her into the parking lot and to her car. See Def.’s
Local Rule 56(a)(1) Stmnt (“56(a)(1) Stmnt;”), Doc. No. 39-2, at f 2. Lawrence’s actions made
the woman sufficiently uncomfortable that she called the Westport Police Department (“WPD”).
See id. By the time a WPD officer arrived at the Fresh Market, Lawrence was gone, but the store
manager told the officer that Lawrence had been involved in similar incidents before. See id. at %
3. Later that day, the store manager called the police to return to Fresh Market because
Lawrence had come back to return a $100 bill he said he found on the ground in the store. See
id. at % 4. The officer returned and spoke with Lawrence, who explained that he had approached
the woman’s car to ask if the $100 bill was hers. See id. Lawrence “became very agitated”
when the officer asked Lawrence why—if he found money on the ground and was trying to
return it—he left the store with the money and then returned with it later. See id. The officer
believed, in fact, that Lawrence left Fresh Market to retrieve a $100 bill, and then returned to the
grocery store so that he had a cover story. See id. at % 6. I refer to this incident throughout as the
“November 5 Incident.”
At a later date, the officer investigated Lawrence and found a lengthy history of similar
incidents with the WPD, including “10 case incidents logged from 2002 [until] present” where
3 Technically, Altice moved for leave to file a sur-reply, see Doc. No. 52, which I granted, see Order, Doc. No. 55.
Altice never subsequently filed its sur-reply, but it attached a “proposed” sur-reply when it moved for leave to file a
sur-reply. See Doc. No. 52-1. I take that proposed sur-reply to be submitted as Altice’s sur-reply.
4 Many of the facts are taken from Altice’s Local Rule 56(a)(1) statement. Lawrence filed a Local Rule 56(a)(2)
statement that essentially denies or caveats every fact asserted in Altice’s 56(a)(1) statement. See Pl.’s Local Rule
56(a)(2) Stmnt, Doc. No. 48. I have taken all of Lawrence’s objections into consideration.

6

Lawrence “was seen following the complainants around a store or coffee shop and then
following them out to their cars where he would either stare at them or get right into their
personal space.” See id. The officer also learned that many more similar incidents had not been
reported to the police. See id. at % 7. Further, the officer learned that there was a current
protective order in effect against Lawrence. See id. at f 5. In addition, the officer learned that
Lawrence had an arrest record in Florida (resisting arrest, fleeing/eluding police) and California
(petty theft, theft of personal property, stalking, inflicting corporal injury to spouse, battery of
spouse). See id. at f 8.
On March 5, 2018, Lawrence was arrested for breach of peace in the second degree for
his role in the November 5 Incident. See id. at^[ 1 (citing Conn. Gen. Stat. § 53a-181).
Lawrence was arraigned on the same charge on March 14. See id. The same day, a News 12
reporter interviewed Lawrence at his house, and Lawrence told the reporter that he did nothing
wrong. Am. Compl., Doc. No. 36, at 1. News 12 reported the story of Lawrence’s arrest on its
television broadcast as well as online throughout March 14 and 15. 56(a)(1) Stmnt, Doc. No. 392, at <J[ 9. There are six discrete instances of reporting that are at issue in this case: TV Reports 1
through 4 and Articles 1 and 2.
1. 7V Reports
TV Report 1 ran at 9:01 pm on March 14. It began: “A Westport man is facing charges
tonight for allegedly stalking several women around town.” Tr. of TV Report 1, Ex. B to Mot.
for Summ. J., Doc. No. 39-5, at 2. The broadcast also reported that the police said that
Lawrence: “was named in 10 cases involving women in local stores”; had “a history of following
women around a store and then out to their car where he would either stare at them or get right in
their personal space”; “turned himself in last week to face charges of doing the same thing to
7

other women”; still had a protective order against him; and “faced similar charges in California.”
Id. at 2-3. TV Report 1 also reported that Lawrence was charged with breach of peace for the
November 5 Incident. Id. at 3. TV Report 1 included an interview from an unnamed woman
(“Parking Lot Complainant”) whose face was indiscernible and said that Lawrence followed her
to her car in a Whole Foods parking lot “months ago.” See id. at 2. The Parking Lot
Complainant said: “This is a guy that you know is walking around the grocery stores preying on
women and it’s really frightening to wonder what could possibly happen.” Id. (I will refer to
this quote as the “preying on women” quote.) TV Report 1 also included a portion of
Lawrence’s interview in which he explains that he did “not break any laws,” was “not guilty,”
and only “approach[ed] a girl and that was it.” Id. at 2-3.
TV Report 2, which ran at 9:33 pm on March 14, was substantially similar to TV Report
1. It began slightly differently: “Police say a Westport man is facing charges tonight for
allegedly stalking women around local supermarkets.” Tr. of TV Report 2, Ex. C to Mot. for
Summ. J., Doc. No. 39-6, at 2. TV Report 2 included some of the same reports of what “police
say”: that Lawrence was named in 10 cases in local stores, that he faced similar charges in
California, that there is a protective order against him, and that he turned himself in last week.
Id. at 2-3. However, TV Report 2 neither mentioned that Lawrence was charged with breach of
peace nor quoted Lawrence. The Parking Lot Complainant was again mentioned, and her
“preying on women” quote was again broadcast. See id. at 2. During the first six seconds of TV
Report 2, the News 12 anchor appeared beside a graphic of handcuffs under which was written:
WOMEN FOLLOWED. See TV Report 2, Ex. C to Pl.’s Response, Doc. No. 50, at 0:00 to
0:06.5

5 Lawrence submitted a DVD with four video clips on it. See Pl.’s Response, Doc. No. 50. The clips all depict
News 12 broadcasts. The first (NEWS12SLANDER-A) (“Ex. A”) and fourth (NEWS12SLANDER-D) (“Ex. D”)

8

TV Report 3, which ran multiple times between 5:00 am and 9:00 am on March 15,
began in the same way as TV Report 1. See Tr. of TV Report 3, Ex. D to Mot. for Summ. J.,
Doc. No. 39-7, at 2. TV Report 3 was, again, substantially similar to TV Reports 1 and 2. In it,
News 12 reported that “police say” that Lawrence: “has a history of following women around
local grocery stores and out to their cars”; has “been involved in 10 cases”; “turned himself in
last week for doing the same thing to other women”; had faced similar charges in California; and
has a protection order filed against him. Id. at 2-3. TV Report 3 mentioned the Parking Lot
Complainant and included the “preying on women” quote. Id. at 2. TV Report 3 omitted
mention of the breach of peace charge and did not include Lawrence’s interview segments.
Lawrence has identified a fourth segment—TV Report A—since he filed his amended
complaint. See TV Report 4, Exs. A and D to Pl.’s Response, Doc. No. 50. Neither party has
explained when TV Report 4 ran, but it was almost certainly the morning of March 15.6 TV
Report 4, again, was substantially similar to TV Reports 1, 2, and 3. TV Report 4 begins: “A
Westport man is facing charges this morning for allegedly stalking several women at local
grocery stores.” See Tr. of TV Report 4, Ex. K to Def.’s Sur-Reply, Doc. No. 52-1. TV Report
4 explains that “police say” that Lawrence: had a history of following women in stores and out to
their cars; has been involved in ten cases; turned himself in last week for a separate similar
incident; faced similar charges in California; and has a protection order filed against him. See id.
at 6-7. TV Report 4 mentions an unidentified complainant (the “Stop & Shop Complainant”)

clips appear identical, and they correspond to the Transcript of TV Report 4. The other two clips appear to
correspond to TV Reports 1 (NEWS 12SLANDER-B) (“Ex. B”) and 2 (NEWS12SLANDER-C) (“Ex. C”). While
NEWS12SLANDER-C appears to correspond to the transcript of TV Report 2, the timing seems off. Altice says
that TV Report 2 ran at 9:33 pm on March 14, but in NEWS12SLANDER-C, the clock in the lower-right hand
corner of the screen reads 9:59. I believe that the same segment may have run twice on the evening of March 14 and
that the parties simply did not catch that difference.
6 The News 12 anchor in TV Report 4 says “Good Morning” to her colleagues and also says: “He appeared in court
for the first time yesterday.” See Tr. of TV Report 4, Ex. K to Def.’s Sur-Reply, Doc. No. 52-1, at 6-7. Lawrence
appeared in court to be arraigned on March 14. See Am. Compl., Doc. No. 36, at 1.

9

from an incident at Stop & Shop “a few months back.” See id. at 6. However, the Stop & Shop
Complainant is plainly the Parking Lot Complainant.7 TV Report 4 also includes Lawrence’s
interview segment in which he says he is “not guilty.” See id. TV Report 4 is unique in one
way, though: During TV Report 4, several graphics are displayed. First, for about 17 seconds
while a reporter introduces the story, a television beside the reporter reads: STALKING
ARREST. See TV Report 4, Ex. A to Pl.’s Response, Doc. No. 50, at 0:11-0:28; TV Report 4,
Ex. D to Pl.’s Response, Doc. No. 50, at 0:06-0:24. Next, for over 25 seconds, a banner at the
bottom right of the screen reads: Stalking Charges: Westport. See id. at 0:30-0:55; see id. at
0:26-0:58. Finally, the STALKING ARREST screen returns. See id. at 1:08-1:20; see id. at
1:02-1:14.
2. Articles
News 12 also made available two print articles online on the evening of March 14
(“Article 1”) and morning of March 15 (“Article 2”).8 Both had the same headline—“Police:
Westport man charged with stalking women”—and first sentence—“A Westport man is facing
charges for allegedly stalking several women around town.” See Article 1, Ex. 2 to Pl.’s Mem.
in Opp’n, Doc. No. 48-2, at 1; Article 2, Ex. 1 to Pl.’s Mem. in Opp’n, Doc. No. 48-1, at 1.
Other than their headlines, Articles 1 and 2 are substantially similar to the TV Reports. Article 1
cites the arrest warrant, investigators, officials, and authorities as saying that Lawrence: is named

7 For one, the Stop & Shop Complainant gives the same “preying on women” quote as the Parking Lot Complainant.
See Tr. of TV Report 4, Ex. K to Def.’s Sur-Reply, Doc. No. 52-1, at 7. In addition, the silhouetted figure identified
as the Stop & Shop Complainant in TV Report 4 appears identical to the silhouetted figure identified as the Parking
Lot Complainant in TV Reports 1 and 2. Compare TV Report 4, Ex. A to Pl.’s Response, Doc. No. 50, at 0:56-1:03
and TV Report 4, Ex. D to Pl.’s Response, Doc. No. 50, at 0:52-0:56 with TV Report 1, Ex. B to Pl.’s Response,
Doc. No. 50, at 0:35-0:42, 1:21-1:25 and TV Report 2, Ex. C to Pl.’s Response, Doc. No. 50, at 0:45-0:53.
8
Lawrence asked Altice to take down Articles 1 and 2, and Altice did so, which means they are no longer available.
See Def.’s Mem. of Law in Supp. Mot. for Summ. J. (“Def.’s Mem.”), Doc. No. 39-1, at 6. Lawrence submitted
print-outs of Articles 1 and 2 in his Reponses. See Doc. Nos. 48-1 and 48-2. Altice has responded to the Articles
but says it “cannot confirm, but does not have a reason to doubt, the authenticity of the Articles.” See Def.’s Mem.,
Doc. No. 39-1, at 6.

10

in 10 different cases; turned himself in last week; has a history of following women around a
store and following them out to their cars; still has a protective order against him; and is facing
similar charges in California. See Article 1, Ex. 2 to Pl.’s Mem. in Opp’n, Doc. No. 48-2, at 1.
Article 1 also mentions the Parking Lot Complainant. See id. Finally, Article 1 reports that
Lawrence was charged with breach of peace in November. Id. Article 2 is almost identical to
Article 1 except that Article 2 (a) includes the “preying on women” quote and attributes it to the
Stop & Shop Complainant and (b) includes Lawrence’s quote about his innocence. Id.
3. Other Incidents
Most of the pages of briefing in this case regard other instances of Lawrence’s
misconduct. Altice has sought to show that it was substantially true to characterize Lawrence’s
behavior over time as “stalking” by more clearly articulating the behavior underlying the “10
cases” referenced in the reports. See 56(a)(1) Stmnt, Doc. No. 39-2, atffl 20-27 (eight specific
incidents in Connecticut between 2002 and 2017); id. at f28 (noting four unreported incidents).
Altice has submitted the WPD incident reports for some of those complaints. See, e.g.y Incident
Report, Ex. F to Mot. for Summ. J., Doc. No. 39-9 (2017 incident in Fresh Market parking lot);
Incident Report, Ex. G to Mot. for Summ. J., Doc. No. 39-10 (2017 incident in Whole Foods
parking lot); Incident Report, Ex. I to Def.’s Reply, Doc. No. 44-2 (reporting a “possible stalking
incident” over a period of months in 2006 spanning numerous locations, including two parking
lots); Incident Report, Ex. J to Def.’s Reply, Doc. No. 44-3 (reporting a “stalking complaint”
over a period of two days in 2003 spanning a Barnes and Noble and New York Sports Club).
Lawrence takes issue with Altice’s characterizations: Lawrence undertakes his own
review of the ten “complaints/incident reports from 2002-2017” and finds that “[t]here are 6 girls

11

involved with making a complaint (not 10) and only 3 times is being around a car/parking lot
involved with the complaint.” See Response, Doc. No. 26-1, at 1-7.
The parties also disagree vociferously about an incident that occurred in September 2018.
See 56(a)(1) Stmnt, Doc. No. 39-2, at % 18; Def.’s Mem. of Law in Supp. Mot. for Summ. J.
(“Def.’s Mem”), Doc. No. 39-1, at 6; Incident Report, Ex. E to Def.’s Mot. for Summ. J., Doc.
No. 39-8 (redacted); Responses, Doc. Nos. 40, 41, 42, and 47. But the news reports at issue in
this case were published in March 2018. No matter how gross Lawrence’s behavior in
September 2018, an incident that occurred after the publication of reports at issue in this case has
no bearing on the truth of those reports. Thus, I find that incident irrelevant.
IV.

Discussion
A. Altice’s References to Lawrence’s Behavior as “Stalking”
The question here is whether Altice defamed Lawrence in the six news reports at issue by

referring to him as a “stalker” or to his activity as “stalking.” Altice claims that all the
statements at issue are not defamatory because they are substantially true. See Def.’s Mem.,
Doc. No. 39-1, at 9-15. In the alternative, Altice claims that the statements are protected as
statements of opinion based on disclosed facts. See id. at 15 n.6. Lawrence counters, generally,
that the statements are defamatory because they were false and met all the other requirements of
defamation. See Response, Doc. No. 41. Altice is entitled to summary judgment because all the
statements at issue were substantially true.
Altice argues that Lawrence bears the burden to establish that the “gist” of its reports was
false. See Def.’s Mem., Doc. No. 39-1, at 11. However, Altice explains that a reasonable lay
person would understand Lawrence’s conduct—not only in the November 5 Incident but also in
other instances—to be “stalking.” See id. at 12, 14. Altice explains that referring to Lawrence’s

12

behavior as “stalking” was substantially true even though Lawrence was never arrested in
Connecticut for the crime of stalking because such minor legal inaccuracies are “of no legal
consequence.” See id. at 12-13.
Lawrence claims that it was false to label him a “stalker” or his behavior as “stalking.”
See Response, Doc. No. 41, at 2. To that end, Lawrence argues that he has never been arrested
for—and his behavior has not fit the elements of—the crime of stalking in Connecticut, which
requires repetitive behavior toward an individual. See Conn. Gen. Stats. §§ 53a-181d (second
degree); and 53a-181e (third degree). Lawrence argues that the November 5 Incident involved a
one-time encounter, and so his behavior clearly was not stalking. See Response, Doc. No. 40, at
6-8; Response, Doc. No. 20, at 6-9.
Defamation claims are “rooted in the state common law” but draw heavy influence from
the minimum standards of the First Amendment. See Gleason v. Smolinski, 319 Conn. 394,430
(2015). To demonstrate a prima facie case of defamation in Connecticut, a plaintiff must show
that (1) the defendant published a defamatory statement that (2) identified the plaintiff to a third
person, (3) was published to a third person, and (4) led to the plaintiffs reputation suffering an
injury. See id. A defamatory statement is a communication that harms another’s reputation. See
id. at 431. “[Tjruth is an affirmative defense to defamation.” Cweklinsky v. Mobil Chemical
Co., 267 Conn. 210, 228-29 (2004). Indeed, “substantial truth provides an affirmative defense.”
See Skakel v. Grace, 5 F. Supp. 3d 199, 207 (D. Conn. 2014).
A defendant’s statements are substantially true when “the main charge, or gist, of the
libel [or defamation] is true,” and “minor errors that do not change a reader’s perception of the
statement do not make the statement actionable.” Id. (citing Strada v. Conn. Newspapers, Inc.,
193 Conn. 313, 322 (1984)). “The issue is whether the libel [or slander], as published, would

13

have a different effect on the reader [or listener] than the pleaded truth would have produced.”
See id. (citing Goodrich v. Waterbury Repuhlican-Am., Inc., 188 Conn. 107, 113 (1982)). “For
purposes of assessing the truth of the allegedly defamatory phrase ..., the court must view it
from the mind of the average reader, taken by its popular acceptation, not its technical meaning.”
Ackerv. Conn. Newspapers Pub. Co., 2013 WL 541160, at *4 (Conn. Super. Ct. Jan. 11,2013)
(citing Restatement (Second) of Torts § 581A cmt. f (1977)). “Particular words or statements
must be viewed, not in isolation, but in terms of the context of the entire communication.”
Woodcock v. Journal Pub. Co., Inc., 230 Conn. 525, 554 (1994) (Berdon, J., concurring) (citing
Yavis v. Sullivan, 137 Conn. 253, 260 (1950)). “Inaccurate headlines are not libelous if they are
correctly clarified by the text of an article.” Id. (citing Contemporary Mission, Inc. v. New York
Times Co., 842 F.2d 612, 624-25 (2d Cir. 1988)); see also Colon v. Town of West Hartford,
2001 WL 45464, at * 4-5 (D. Conn. Jan. 5, 2001) (citing Davis v. Ross, 754 F.2d 80, 83 (2d Cir.
1985) (New York law)). In a case brought by a private-figure plaintiff about a matter of public
concern, the plaintiff bears the burden of proving falsity. See Gleason, 319 Conn, at 442^15
(citing, inter alia, Phila. Newspapers, Inc. v. Hepps, 475 U.S. 767 (1986); Flamm v. Am. Ass’n of
. Univ. Women, 201 F.3d 144, 149 (2d Cir. 2000)).
The “substantially true” inquiry is heavily fact-dependent. A New York court (discussing
New York law) has remarked that “the cases addressing the extent to which a given statement is
substantially true fall along a broad spectrum.” Jewell v. NYP Holdings, Inc., 23 F. Supp. 2d
348, 367 (S.D.N.Y. 1998). In the middle of that spectrum are cases in which “the stretch
between the statement and the admitted truth” is tenuous, but “still the overall ‘gist’ or ‘sting’
cannot be said to be ‘substantially’ different.” Id. at 368. When a case falls into this category,
the substantial truth doctrine normally applies and bars liability for defamation.

14

Jewell itself was a middle category case. There, the plaintiff sued the New York Post for
publishing an article referring to him as the “main” suspect in a terrorism investigation rather
than “a” suspect, which was the truth. See id. at 367. The court found the Post not liable for
defamation because the statements were “substantially true in light of his admission that he was
‘a’ suspect.” See id. at 369. That is, despite the difference between the words “main” and “a,”
“a reasonable reader would not have reacted differently ... based upon this difference in
terminology. Under either usage, the main ‘sting’ or ‘gist’ of the overall content of the column
was the same—Jewell was suspected of having planted the bomb and was being actively
investigated by the authorities.” Id.
Some courts in Connecticut have also found that statements mislabeling criminal activity
are not defamatory because they are substantially true. For instance, in Finnelli v. Tepfer, the
media defendant was found not liable for defamation when a headline read “Killing of Pet
Rabbit, Threats Lead to Arrest”—even though the plaintiff had not been arrested for killing his
pet rabbit and the police had not explicitly said that he killed the rabbit—because the report was
substantially true. 2009 WL 1424688, at *2, *5 (Conn. Super. Ct. Apr. 24, 2009). The report
was substantially true because the article reported numerous facts which “strongly indicate that
the plaintiff killed the rabbit, or at the very least, that law enforcement believed he did” and
because the actual truth would have had no different effect on the reader than the substantial
truth that was already printed. Id. at *6. See also Baia v. Jackson Newspapers, Inc., et al., 12
Media L. Rptr. 1780, at *2 (Conn. Super. Ct. Dec. 26, 1985) (no defamation when headline said
plaintiff charged with “pulling off’ largest bank robbery in history when, in fact, charged only
with conspiracy because article clarified that fact, and difference between truth and headline
would not have had different effect on readers).

15

Courts in other jurisdictions have reached similar holdings. For instance, in Barnett v.
Denver Publ’g Co., a Colorado appeals court held the newspaper defendant not liable for
defamation when the defendant wrote that the plaintiff had been “convicted in a stalking
incident” even though the plaintiff had been convicted only of harassment. 36 P.3d 145, 148
(Colo. App. 2001). The court noted that at the time of the plaintiffs offense, the court had
described the offense as “almost stalking”; that at the time of the offense, both stalking and
harassment were misdemeanors (now stalking was a felony); and that, despite the distinction
between the two crimes, “both terms describe similar repeated, unsolicited behavior.” See id;
see also Simonson v. United Press Int’l, Inc., 654 F.2d 478, 481-82 (7th Cir. 1981) (no
defamation when “rape” used even though crime was second-degree sexual assault because
“rape,” as understood in common usage, truthfully described the conduct); Read v. Phoenix
Newspapers, Inc., 819 P.2d 939, 942 (Ariz. 1991) (en banc) (no defamation for reporting
plaintiff fired his gun when he only displayed it because “the ‘sting’ of the two versions is not
substantially different,” and the full truth “would not have been any less damaging]”); Sivulich
v. Howard Publ’ns, Inc., 466 N.E.2d 1218, 1220 (Ill. Ct. App. 1984) (no defamation when
reports said plaintiff charged with aggravated battery—even though only a civil case—because,
commonly understood, “charged” “includes any assertion against an individual, including
averments in a civil complaint,” and context indicated it was a civil case); Anderson v. Cramlet,
789 F.2d 840, 844 (10th Cir. 1986) (no defamation when letter to the editor described behavior
as “kidnapping” rather than violation of custody order because “in the popular sense of the
word,” the letter “truthfully and accurately described” the conduct); Russin v. Wesson, 183 Vt.
301, 304-05 (2008) (no defamation when non-media defendant characterized plaintiff as
“thief’-

:ven though plaintiff committed only conversion—because it was a “legally mistaken

16

but substantially accurate statement” especially because legal terms of art are “more broadly
defined in lay usage”).
In contrast, at least one Connecticut court has chosen not to apply the substantial truth
defense where a media defendant wrote that a plaintiff had engaged in the incorrect type of
crime. See Acker, 2013 WL 541160 at *7. But the circumstances there were much different
from those here. In Acker, the plaintiff was a director of a non-profit animal shelter. See id. at
* 1. The Connecticut Post published a story about the plaintiff that claimed he had, in the past,
pled guilty to a charge of animal cruelty; in fact, the plaintiff had “a confrontation with a family
who had decided not to adopt one of his dogs” and pled guilty to breach of peace and failure to
vaccinate. See id. at *3^1. The court found that the statement was not substantially true under
the circumstances. Cruelty to animals was not clearly connected to breach of peace, either
legally or in popular understanding. See id. at *5. Thus, a layperson might infer from the
statement as published that “the plaintiff had engaged in intentional, malicious, or even sadistic
infliction of suffering on animals, as opposed to mere neglect.” Id. In contrast, the actual truth
“could not have conveyed to a reasonable person such malicious and intentional conduct toward
animals.” See id. at *5. That is, the actual truth and the reported statement would not have
produced the same effect on the reader; “[t]he difference is not merely superficial or technical.”
See id. The court explained that the reported statement “does not bear a close enough relation to
the subject matter of the remainder of the article for the truth of the other statements to add to its
veracity.” Id.
This case is unlike Acker and more like all the other cases cited above. When Altice used
the term “stalking” in its reports, it was not defamatory because, in context, the actual truth
would have had no different effect on a reasonable reader. To be sure, the reports are not

17

entirely correct. Recall that under Connecticut law, stalking implies a repeated behavior;9 breach
of peace does not. Additionally, both legally10 and in common parlance,11 the term “breach of
peace,” taken on its own, certainly does not conjure the same vision of sexual predation that the
term “stalking” does.12 Lawrence was never charged with the crime of stalking in Connecticut.
For that reason, it was arguably inaccurate when all six reports said in their opening lines that
Lawrence was “facing charges for allegedly stalking” women. For the same reason, it was
arguably inaccurate to show graphics in TV Report 4 that read “STALKING ARREST” and
“Stalking Charges.” Finally, it was arguably inaccurate when the headlines in Articles 1 and 2
reported “Police: Westport man charged with stalking women.” Stalking and breach of peace are
not identical.
However, that difference does not make the statements at issue defamatory. When
evaluating whether a statement is defamatory, “the court must view it from the mind of the
average reader, taken by its popular acceptation, not its technical meaning.” Acker, 2013 WL
541160, at *4. As Altice points out, Lawrence’s conduct—both on November 5 and on
numerous instances before—maps onto the common usage of the word “stalking.” Importantly,
in common usage, “stalking” does not mean, necessarily, repeated behavior. See Stalk, Random
House Webster’s Unabridged Dictionary (2d ed. 1998) (“[T]o pursue (game, a person, etc.)
stealthily.”); Stalk, The Merriam-Webster.com Dictionary, https://www.merriam-

9 See Conn. Gen. Stat. § 53a-181e (“[WJillfully and repeatedly following or lying in wait. .. ”) (third degree); Conn.
Gen Stat. § 53a-181d (requiring “course of conduct,” which includes “two or more acts”) (second degree).
10 See Conn. Gen. Stat. § 53a-181 (criminalizing one-time fighting, assault, threats, threatening behavior, offensive
actions, obscenity, general hazard).
11 See Breach of the Peace, Random House Webster’s Unabridged Dictionary (2d ed. 1998) (“[A] violation of the
public peace, as by a riot, disturbance, etc.”); A Breach of the Peace, The Merriam-Webster.com Dictionary,
https://www.merriam-webster.com/dictionary/breach%20of%20peace (last visited Jan. 4, 2020) (“[L]oud or violent
behavior in a public place.”).
12 However, breach of peace, by criminalizing threatening behavior, does encompass stalking behavior.

18

webster.com/dictionary/stalk (last visited Jan. 4, 2020) (“[T]o pursue obsessively and to the point
of harassment. ”13
Further, each report makes clear that the segment is not merely about Lawrence’s most
recent arrest, but the totality of his similar activity; in other words, the pieces were about
Lawrence’s similar conduct over time. All six reports mention that police say Lawrence had
been involved in ten similar incidents involving women in local stores. All six pieces mention
and include quotes from a complainant from an incident separate from the Noverhber 5 Incident.
All six reports mention that Lawrence had been charged with similar incidents in California and
that he was the subject of a protective order. All four TV Reports mention in their first sentence
that the report was about “women” (plural) and three of the reports (1,3, and 4) use the phrase
“several women” even though only one woman was involved in the November 5 Incident. TV
Report 1 and Articles 1 and 2 explicitly mention that Lawrence’s November 5 Incident led to a
breach of peace charge.
The graphics in TV Report 4 and the headlines in Articles 1 and 2 are the statements that
appear the least “true.” Still, none of those statements is defamatory. The graphics in TV Report
4 explain that the segment related to a “STALKING ARREST” and that these were “Stalking
Charges.” Those statements are not entirely true. But the rest of TV Report 4’s content
significantly dulls the impact of that inaccuracy. TV Report 4 mentions that police say Lawrence
had a “history of following women around the stores and then out to their cars” and that he had
“been involved in 10 cases.” The segment reported on the Stop & Shop complainant and
included the “preying on women” quote. The segment also reported that Lawrence had faced
similar charges in California and had a protective order filed against him. Given the content of

13 Even the generic legal definition of “stalking” does not require the “repeated” element of Connecticut’s law. See
Stalking, Black’s Law Dictionary (11th ed. 2019) (“The act or an instance of following another by stealth.”).

19

the segment, a reasonable reader would not have been affected differently had the graphics not
appeared, or, instead, read “BREACH OF PEACE ARREST.”
The same goes for Articles 1 and 2. Their headlines read: “Police: Westport man charged
with stalking women.” That is misleading if not outright false. But the remainder of the
Articles, again, mitigates the problem. Both Articles explain that Lawrence was actually
“charged [] with breach of peace for an incident back in November.” In addition, both Articles
explain that the arrest warrant mentions 10 similar incidents; Article 1 mentions the Parking Lot
Complainant and Article 2 mentions the Stop & Shop Complainant; both mention Lawrence’s
similar charges in California and his protective order; and Article 2 includes the “preying on
women” quote. The headlines are not defamatory because the average person reading the
Articles would not have been affected differently if the headlines read, for instance, “Police:
Westport man charged with breach of peace for following woman.” Thus, the headlines are
substantially true.
Lawrence contests the accuracy of some aspects of the reports unrelated to the statements
that explicitly use the word “stalk.” Lawrence claims that it was inaccurate to report that he had
been involved in 10 similar cases; that he had a protective order against him; and to include a
misleading interview with a complainant. See, e.g., Response, Doc. No. 26-1, at 1, 6 (arguing
that only three of the ten cases were similar and that the protective order expired by March
2018). Those challenges are not entirely beyond the scope of Lawrence’s defamation challenge:
If the body of the reports provides the context that makes the “stalking” statements not
defamatory, it is important to determine whether the body of the reports are themselves true.
Fortunately, this is an easy inquiry: none of Lawrence’s complaints has merit.

20

First, regarding Lawrence’s grievance about the complainant’s interview, he is merely
upset that News 12 interviewed the complainant and included her story. There is no dispute that
what she said was reported faithfully. Thus, there is no issue of material fact here. Lawrence’s
other complaints are easily set aside by considering the Arrest Warrant Application. See Arrest
Warrant Application, Ex. A to Def.’s Mot. for Summ. J., Doc. No. 39-4. In all six reports, News
12 reported that police (or “authorities” in the case of Article 2) say Lawrence (1) had been
named in 10 similar cases, (2) faced similar charges in California, and (3) had a protective order
filed against him. Those facts were plainly drawn from the Arrest Warrant Application: News
12 noted that “police sa[id]” those facts, and News 12 even cited the Arrest Warrant in TV
Reports 1 and 2 and Article 1. Thus, those statements would be untrue only if police did not say
them. The Arrest Warrant Application, which was authored by a WPD officer, makes it
perfectly clear that the police did say the things that Lawrence disputes. See id.
Because I find that all the statements at issue were substantially true and not defamatory
for that reason, I need not consider Altice’s alternative argument that the statements are protected
as statements of opinion based on disclosed facts. See Def.’s Mem., Doc. No. 39-1 at 15 n.6.
C. Infliction of Emotional Distress Claim
In his Amended Complaint, Lawrence asserts a new, third claim for “emotional
distress/mental anguish.” See Am. Compl., Doc. No. 36, at 13. Below this heading, Lawrence
lists: “Examples of ramifications/stories of being falsely portrayed as a ‘stalker.’ Therapy
sessions. Costs of aspects of my life that I lost. Costs of attempts to re-establish myself.
Letters/evidence from places I have been banned because of News 12. All 50+ ongoing
Damages, ETC ... all to be shared.” Id. Altice claims that those “costs” overlap completely
with Lawrence’s complaints in his defamation causes of action and so this third claim should not
21

be construed as a new cause of action for infliction of emotional distress (“IED”). See Def.’s
Mem., Doc. No. 39-1, at 15-16. Even if it were, Altice says, it is not properly pled because
Lawrence did not seek leave to amend his complaint to add a new cause of action. See id. at 16
(citing Fed. R. Civ. P. 15(a)(2)). And even if it were properly pled, Altice says, the IED claim
should be dismissed for the same reasons that the defamation claim should be: “the News
Reports are true.” See id.
As relevant here, under Fed. R. Civ. P. 15(a)(2), if a party is not entitled to amend its
pleading as a matter of course, then a party may amend its pleading only with the opposing
party’s written consent or with the court’s leave, which the court may give when justice so
requires. “Generally, leave to amend should be freely given, and a pro se litigant in particular
should be afforded every reasonable opportunity to demonstrate that he has a valid claim.”
Nielsen v. Rabin, 746 F.3d 58, 62 (2d Cir. 2014) (citing Matima v. Celli, 228 F.3d 68, 81 (2d Cir.
2000)). Still, leave to amend may be denied when amendment would be futile. See id. (citing
Tocker v. Philip Morris Cos., 470 F.3d 481, 491 (2d Cir. 2006)). “[A] plaintiff may not use a
claim for emotional distress to circumvent the established and carefully balanced framework of
constitutional and state libel law.” Cowras v. Hard Copy, 56 F. Supp. 2d 207, 209 (D. Conn.
1999) (citing Hustler Magazine v. Falwell, 485 U.S. 46, 56 (1988)) (internal quotation marks
omitted). Thus, a plaintiff may not recover damages “under the generally applicable laws of
intentional and negligent infliction of emotional distress where those claims are based on
constitutionally protected conduct.” Id. at 210.
There is no doubt that Lawrence’s claim for IED is based on the same statements that I
have already found were substantially true: those are the only statements at issue in this case. As
I have found, those statements are constitutionally protected. If allowed to proceed, Lawrence’s

22

IED claims “would amount to an end run around [] constitutional restrictions.” Id. at 209. I
cannot allow that. Thus, I will treat Lawrence’s claim for IED as properly pled, but I will grant
Altice’s motion for summary judgment against it.
V.

Conclusion
I grant Altice’s motion for summary judgment. Altice is not liable for defamation

because the allegedly defamatory statements at issue are substantially true. The clerk is directed
to enter judgment for Altice and to close the case.

So ordered.
Dated at Bridgeport, Connecticut, this 9th day of January 2020.

/s/ STEFAN R. UNDERHILL
Stefan R. Underhill
United States District Judge

23

• '
,

20-393
UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

Lawrence v. Altice U.S.
Decided Jan 7. 2021

20-393

40 Foley Square, in the City of New York, on
the 7th day of January, two thousand twenty-

01-07-2021
JAMES

one. PRESENT: DEBRA ANN LIVINGSTON,

LAWRENCE,

Plaintiff-Appellant,

v.

Chief Judge , MICHAEL H. PARK, STEVEN
J. MENASHI, Circuit Judges.

ALTICE USA, Defendant-Appellee.
JAMES

FOR PLAINTIFF-APPELLANT:

Westport, CT. FOR
KATHERINE
DEFENDANT-APPELLEE:

JAMES LAWRENCE, pro se, Westport, CT.

BOLGER, Davis Wright Tremaine, LLP, New

FOR DEFENDANT-APPELLEE:

York, NY; Lisa Beth Zychennan, Davis Wright

KATHERINE BOLGER, Davis Wright Tremaine,

FOR

PLAINTIFF-APPELLANT:

LAWRENCE,

pro

se,

Tremaine, LLP, Washington, DC; Timothy G.
Ronan, Pullcom & C.omley, Bridgeport, CT.

-)

LLP, New York, NY; Lisa Beth Zychennan, Davis
Wright *2 Tremaine, LLP, Washington, DC;
Timothy

FOR THE COURT: Catherine O'Hagan Wolfe,

G.

Ronan.

Pullcom

&

Com ley,

Bridgeport, CT.

Clerk of Court
Appeal from a judgment of the United States
SUMMARY

ORDER

RULINGS

BY

SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS
GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS

District Court for the District of Connecticut
(Underhill, J.).
UPON DUE CONSIDERATION, IT IS
HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court
is AFFIRMED.

COURTS LOCAL RULE 32.1.1. WHEN
CITING A SUMMARY ORDER IN A
DOCUMENT FILED WITH THIS COURT, A
PARTY
MUST
CITE
EITHER THE

Appellant James
Lawrence
("Lawrence"),
proceeding pro se, filed an amended complaint

FEDERAL

for

ELECTRONIC

APPENDIX
DATABASE

OR
(WITH

AN
THE

NOTATION "SUMMARY ORDER”). A
PARTY CITING TO A SUMMARY ORDER
MUST SERVE A COPY OF IT ON ANY
PARTY NOT REPRESENTED BY COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse,
0 casetext

against Altice USA ("Altice") for libel and
defamation. He argued that, after he was arrested
breaching

the

peace,

one

of Altice's

subsidiaries—News 12 Connecticut ("News 12")
—falsely stated that he was facing charges for
"stalking" in its television and online reporting.
Lawrence had been arrested for allegedly
following a woman around a grocery store and out
to her car. News .12 covered this incident as well
as several similar incidents involving Lawrence
discovered by police after further investigation.

1

J

Lawrence v. Altice U.S.

20-393 (2d Cir. Jan. 7,2021)

Lawrence also alleged a separate claim for

Lawrence have the burden of proving falsity

intentional infliction of emotional distress. The

against media defendants, Phila. Newspapers, Inc.

district court granted summary judgment in favor
of Altice, finding that News 12's reports were

v. Hepps, 475 U.S. 767, 111 (1986).
Media defendants do not incur liability for
reporting that is "substantially true" even if that

substantially true and not defamatory, and that his
emotional distress claim was derivative of the

reporting does not satisfy "[a] fussy insistence
upon literal accuracy." Strada v. Conn.

defamation claim. We assume the parties’
familiarity with the underlying facts, the

Newspapers, Inc., 193 Conn. 313, 321-23 (1984);

procedural history of the case, and the issues on
appeal.

see also Masson v. New Yorker Mag., Inc., 501
U.S. 496, 516 (1991) ("The common law of libel .

We review a grant of summary judgment de novo,

. . overlooks minor inaccuracies and concentrates
upon substantial truth."). In determining

"resolving all ambiguities and drawing all
permissible inferences in favor of the non-moving
party.” Tiffany & Co. v. Costco Wholesale Corp.,

3

substantial truth, the "issue is whether the libel, as
published, would have a different effect on the

971 F.3d 74, 83 (2d Cir. 2020). "Summary
judgment is proper only when, construing the

reader than the pleaded

evidence in the light most favorable to the non­
movant, 'there is no genuine dispute as to any

Am., Inc., 188 Conn. 107, 113 (1982). A
defendant's statement is substantially true when

material fact and the movant is entitled to

"the main charge, or gist, of the libel [or

judgment as a matter of law.'" Doninger v. Niehoff.
642 F.3d 334, 344 (2d Cir. 2011) (quoting Fed. R.

defamation] is true" and, consequently, "minor

Civ. P. 56(a)). *3

the

Defamation claims in Connecticut are "rooted in

actionable." Strada, 193 Conn, at 322 (quotation
marks *4 omitted). "Particular words or statements

the state common law" but are "heavily influenced
by the minimum standards required by the First
Amendment." Gleason v. Smolinski, 319 Conn.
394, 430 (2015) (quotation marks and alteration
omitted). To prevail on a defamation claim in
Connecticut, a plaintiff must show that (1) the
defendant published a defamatory statement that
(2) identified the plaintiff to a third person, (3)
was published to a third person, and (4) led to the
plaintiffs reputation suffering injury. Id. A
statement is defamatory when it "tends to harm the
reputation of another as to lower him in the
estimation of the community or to deter third
persons from associating or dealing with him." Id.
at 431 (quotation marks omitted). Of course, "for a
claim of defamation to be actionable, the

truth would have

produced." Goodrich v. Waterbary Republican-

errors that do not change a reader's perception of

4

statement

do

not

make

the

statement

must be viewed, not in isolation, but in terms of
the context of the entire communication."
Woodcock v. Journal Publ'g Co., 230 Conn. 525,
554 (1994) (Berdon, J., concurring); see also
Greenbell Coop. Publ'g Ass'n v. Bresler, 398 U.S.
6, 14 (1970) (viewing newspaper's use of the term
"blackmail" in context to gauge how a "reader . . .
[would have] understood exactly what was meant"
when assessing libel claim of a plaintiff never
charged with blackmail).
Here, the district court properly granted summary
judgment because the evidence showed that News
12 accurately reported on what police said
regarding Lawrence's documented history of
following women in a harassing manner. The

statement must be false." Id. (quotation marks

totality of Lawrence's conduct—including on

omitted). While truth is an affirmative defense to
defamation under the common law, id., under the

November 5th and numerous past instances—met
the common definition of "stalking": "to pursue

First Amendment, private-figure plaintiffs such as

quarry or prey stealthily," or "to pursue
obsessively to the point of harassment." Stalk,

casetext

2

A

\

Lawrence v. Aitice U.S.
Merriam-Webster's Online Dictionary (accessed

defendant used the term "rape" even though the

Nov. 9, 2020). As described in the arrest warrant
application on which News 12 based its reporting,

crime was second-degree sexual assault). Here,
although "stalking" and "breach of the peace" are

Lawrence was accused on November 5, 2017 of

distinct crimes under Connecticut law,1 News 12's

following a woman inside a grocery store and out

use of the term "stalking" would not have affected

to her car in the parking , lot, where he stood

average readers' and viewers' perceptions of

staring at her. This behavior was similar to his

Lawrence because the gist of its reporting

behavior in ten other reported incidents since 2002
in which he followed women in public places

established that Lawrence's behavior met the

causing them to call the police because they felt
uncomfortable. Therefore, because the November

12's television reports and internet articles covered
not just the November 5th incident, but several *e>

5th incident and the other incidents mentioned in

common definition of stalking. Moreover, News
6

the arrest warrant involved Lawrence's repeated,
unsolicited, and frightening behavior toward

instances of Lawrence's similar conduct spanning
over a decade. The reports summarized what the
police said regarding the November 5th incident,

women, they were fairly described as stalking.

Lawrence's charges

Lawrence argues that News 1.2's reporting was
defamatory because he was arrested for breaching
the peace on November 5 but not for stalking, and
his past conduct did not satisfy the common
5

20-393 (2d Cir. Jan. 7, 2021)

definition of stalking. Lawrence is correct that the
police never charged him with *5 stalking in
Connecticut. Thus, News 12's statement that
Lawrence was "facing charges for allegedly
stalking,”

its

graphics reading

for

similar behavior in

California (where he was actually charged with
stalking), and his outstanding protective order.
The reports included segments mentioning
multiple "women" and nearly all used the phrase
"several women," though only one woman was
involved in the November 5th incident. Both
internet articles and one television report explicitly
mentioned the charge of breach of peace.

"STALKING

Even though the graphics in the fourth and final

ARREST" and "Stalking Charges," and the
headline of both its articles, "Police: Westport man
charged with stalking women," were technically

television report and the headlines of both internet

inaccurate.
Indeed,
the
district
acknowledged these inaccuracies.

court

However,

these

inaccuracies

Lawrence's
were

argument

"clearly

that

defamation"

is

unavailing. A media defendant's characterization
of criminal allegations against a private plaintiff is
substantially true if the characterization comports
with the common understanding of the tenns
employed. See, e.g., Anderson v. Cramlel, 789
F.2d 840, 844 (10th Cir. 1986) (affirming
summary judgment for a media defendant in a
defamation case when a letter to the editor
described behavior as "kidnapping" because, "in
the popular sense of the word," the letter
"truthfully and accurately described" the conduct);
Simonson v. United Press Int'l, Inc., 654 F.2d 478,
481-82 (7th Cir. 1981) (same result when media

casetext

articles gave the impression that Lawrence had
been charged with stalking, the contents of those
reports compensated for these inaccuracies by
accurately describing Lawrence's charged conduct.
See Woodcock, 230 Conn, at 554 ("Inaccurate
headlines are not libelous if they are correctly
clarified by the text of an article.") (Berdon, J.,
concurring) (citing Contemporary> Mission, Inc. v.
N.Y. Times Co., 842 F.2d 612, 624-25 (2d Cir.
1988)). Against the backdrop of the fourth
television report's headlines and graphics, News
12 accurately reported that police said Lawrence
had a "history of following women around the
stores and then out to their cars" and that he had
"been involved in 10 cases." It also included an
anonymous complainant from a previous incident
who accused Lawrence of preying on women and
commented on Lawrence's California charges and
outstanding protective order. Similarly, the News

3

v

Lawrence v. Altice U.S.

i

12 articles accurately reported that Lawrence was

Snyder v. Phelps, 562 U.S. 443, 451 (2011)

charged

breaching the peace for the

(alteration and internal quotation marks omitted).

November 5th incident and explained that the
aircst warrant application mentioned ten similar

Accordingly, "where discussion of public affairs is
concerned," substantially truthful speech "may not

incidents. The first article mentioned the
anonymous complainant, Lawrence's California

be the subject of either civil or criminal
sanctions." Garrison v. Louisiana, 379 *8 U.S. 64,

with

8

charges, and the outstanding protective order. In

74 (1964). Lawrence's claim for emotional distress

addition to this information, the second article also
included the anonymous complainant's preying

is therefore barred by the First Amendment.

accusation. In short, the "main charge, or gist" of
7

20-393 (2d Cir. Jan. 7, 2021)

News 12's reports was that Lawrence's *7 behavior
in the November 5th incident was consistent with
his history of similar behavior, thus fairly
summarizing what the police stated in the arrest
warrant affidavit. Goodrich, 188 Conn, at 113.
Overall, when viewed in context and from the

Even if it were not, Lawrence's emotional distress
claim would fail as a matter of law. To prevail in
an action for intentional infliction of emotional
distress, the plaintiff must show: "(1) that the actor
intended to inflict emotional distress; or that he
knew or should have known that emotional
distress was a likely result of his conduct; (2) that
the conduct was extreme and outrageous; (3) that

vantage point of the average audience member,
Greenbelt Coop. Publ'g Ass'n, 398 U.S. at 14,
News 12's reporting on the information it obtained

the defendant's conduct was the cause of the

from the police about Lawrence was "substantially
true" and not defamatory. Strada, 193 Conn, at

DeLaurenlis v. City of New Haven. 220 Conn.
225, 266-67 (1991). Conduct is "extreme and

321-22. Accordingly, the district court properly
granted summary judgment to Altice. See Mercer
v. Cosley, 955 A.2d 550, 564 (Conn. App. 2008)

outrageous" when "the conduct has been so
outrageous in character, and so extreme in degree,

("[W]here the inaccuracies are of a technical

and to be regarded as atrocious, and utterly
intolerable in a civilized community." DeLeon v.
Little, 981 F. Supp. 728, 737 (D. Conn. 1997).

nature that conveyed the same meaning as the true
facts would have in the eyes of the average reader,
summary judgment may be appropriate.").
Because Lawrence raises arguments concerning
the dismissal of his emotional distress claim for
the first time in his reply brief, we need not
consider them. See JP Morgan Chase Bank v.
Altos Homos de Mexico, S.A. de C.V., 412 F.3d
418, 428 (2d Cir. 2005) ("[Arguments not made

plaintiffs distress; and (4) that the emotional
distress sustained by the plaintiff was severe."

as to go beyond all possible bounds of decency,

News 12's substantially true reports concerning
Lawrence's conduct cannot be so characterized.
See id. ("Whether conduct is extreme and
outrageous is a determination for th[e] court to
make in the first instance."). Accordingly,
Lawrence cannot prevail on his claim
intentional infliction of emotional distress.

for

in an appellant's opening brief are waived even if
the appellant pursued those arguments in the

Wc have considered Lawrence's remaining
arguments and find them to be without merit.

district court or raised them in a reply brief.");
Graham v. Henderson, 89 F.3d 75, 82 (2d Cir.

Accordingly, we AFFIRM the judgment of the
district court.

1996) (applying this rule to a pro se litigant).
In any event, the emotional distress claim is barred
by the First Amendment and fails as a matter of

FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk of Court

law. "Speech on matters of public concent is at the
heart of the First Amendment's protection."

casetext

4

1

, \/
Lawrence v. Altice U.S.

\ ~r-

Compare Conn. Gen. Stat. § 53a-181e(a) (thirddegree stalking) ("A person is guilty of stalking in
the third degree when such person recklessly
causes another person to reasonably (I) fear for
his or her physical safety, or (2) suffer emotional
distress.. . by wilfully and repeatedly following or
lying in wait for such other person."), with id. §

20-393 (2d Cir. Jan. 7, 2021)

53a-181(a) (second-degree breach of peace) ("A
person is guilty of breach of peace in the second
degree when, with intent to cause inconvenience,
annoyance or alarm, or recklessly creating a risk
thereof, such person: Engages in . . . threatening
behavior in a public place.").

^ casetext

5

1

i

Case 20-393, Document 149, 03/10/2021,3053411, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 10th day of March, two thousand twenty-one,
Before:

DEBRA ANN LIVINGSTON,
Chief Judge,
MICHAEL H. PARK,
STEVEN J. MENASHI,
Circuit Judges.

James Lawrence,

ORDER
Docket No. 20-393

Plaintiff - Appellant,
v.
Altice USA,
Defendant - Appellee,

Appellant James Lawrence having filed a petition for panel rehearing and the panel that
determined the appeal having considered the request,
IT IS HEREBY ORDERED that the petition is DENIED.

For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court

J

Additional material
from this filing is
available in the
Clerk's Office.

